APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_______
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MICHAEL G. HARPER, a.k.a. Cuban Mike,
Defendant-Appellant.
_______
Appeal from the United States District Court
for the Southern District of Florida,
D.C. Docket No. 1:99-cr-00125-KMM-11
_______
No. 20-13296
_______
May 11, 2021
_______
ATTORNEYS AND LAW FIRMS
Jonathan Colan, U.S. Attorney Service - Southern
District of Florida, U.S. Attorney Service - SFL,
Miami, FL, Brandy Brentari Galler, U.S. Attorney’s
Office, Miami, FL, for Plaintiff-Appellee
Catherine Emily Stetson, Jo-Ann Sagar, Hogan
Lovells US, LLP, Washington, DC, Daniel Balmori,

2a
David Nabors, Hogan Lovells US, LLP, Miami, FL, for
Defendant-Appellant
_______
Before WILSON, ROSENBAUM, and GRANT,
Circuit Judges.
_______
OPINION
_______
PER CURIAM:
Michael Harper appeals the district court’s denial of
relief under the First Step Act. Because the district
court did not abuse its discretion, we affirm.
I.
In 2000, a jury found Harper guilty of one count of
conspiracy to possess with intent to distribute cocaine
powder and cocaine base in violation of 21 U.S.C.
§§ 841(a)(1) and 846. The district court sentenced
Harper to life imprisonment, which was the statutory
maximum and the U.S. Sentencing Guidelines
Manual sentence. See 21 U.S.C. § 841(b)(1) (2000);
U.S.S.G. § 2A1.1 (2000). This Circuit affirmed his
conviction and sentence on direct appeal. See United
States v. Baker, 432 F.3d 1189 (11th Cir. 2005).
After the First Step Act was enacted, Harper filed a
motion to reduce his sentence, citing developments in
the law that changed the applicable statutory penalty.
The district court denied his motion, determining that
he was ineligible for a sentence reduction because his
guideline range had not changed. He then moved for
reconsideration of that order; following this Court’s
decision in United States v. Jones, both parties filed
supplemental briefing on the issue. See 962 F.3d 1290

3a
(11th Cir. 2020). The district court again denied relief;
this time it concluded that Harper was eligible for a
sentence reduction, but denied relief because a
“downward departure” from the Guidelines
recommended sentence would be inappropriate.
This appeal followed.
II.
We review the district court’s denial of an eligible
movant’s request for a reduced sentence under the
First Step Act for abuse of discretion. Jones, 962 F.3d
at 1296.
III.
Harper first contends that the district court
mistakenly found him ineligible for relief, pointing to
its statement that he was not “entitled” to a sentence
reduction. But being “entitled” to a discretionary form
of relief is not the same as being “eligible,” and the
district court clearly concluded that Harper was
eligible for a reduction. After discussing this Court’s
decision in Jones, the court stated that Harper had a
“covered offense” because the district court sentenced
him for a violation of § 841 for which section two of the
Fair Sentencing Act modified the statutory penalties.
See 962 F.3d at 1298; see also First Step Act § 404(a).
Specifically, the court noted that his offense involved
crack cocaine and triggered the higher penalties
provided for in § 841(b)(1)(A)(iii). Unlike its initial
order, the court’s final order did not imply that
eligibility turned on whether the guideline range had
changed; instead, the court discussed Harper’s
guideline range only to explain why it was declining

4a
to exercise its discretion to reduce his sentence below
that recommendation.1
Next, Harper contends that the court abused its
discretion by not discussing the 18 U.S.C. § 3553(a)
factors when denying his motion. Although courts are
required to consider the § 3553(a) factors at the initial
sentencing, we have not yet decided whether courts
must consider them when deciding a motion to reduce
a sentence under the First Step Act. Cf. Jones, 962
F.3d at 1304. No matter. We need not decide this
question to resolve Harper’s appeal because even if
the district court was required to look at the § 3553(a)
factors, we conclude that it did so here.
When a court is required to consider the § 3553(a)
factors, it does not err by failing to specifically
articulate the applicability of each factor. United
States v. Eggersdorf, 126 F.3d 1318, 1322 (11th Cir.
1997). Instead, it is enough if the record taken as a
whole demonstrates that the court took into account
the pertinent factors. Id. Where the parties discuss
the applicable § 3553(a) factors in their briefing, the
district court’s statement that it considered those
submissions is sufficient to demonstrate that it took
the statutory factors into account before making its
decision. Id. at 1322–23; see also United States v.
Smith, 568 F.3d 923, 927–28 (11th Cir. 2009).
Though the district court did not explicitly mention
§ 3553(a) in its order, the record reflects that the
1

Harper argues that the district court erroneously thought the
Guidelines were mandatory. But the district court’s order says
the opposite: “Even if the life sentence provided in § 2A1.1 is not
mandatory, the Court finds that a downward departure would be
inappropriate.”

5a
district court took the relevant factors into account.
The court’s final order stated that it considered
Harper’s motions and both parties’ supplemental
briefing; those filings discussed the applicable §
3553(a) factors. See Eggersdorf, 126 F.3d at 1322–23.
In fact, as Harper himself admits, his filings offered
the court “substantial information regarding those
factors.” What’s more, the court discussed the
applicability of U.S.S.G. § 2A1.1 and calculated
Harper’s guideline range, a relevant factor under §
3553(a)(4). Even further, the judge who denied this
motion was the same judge who presided over
Harper’s trial and original sentencing. He had already
heard and considered arguments regarding the
nature and circumstances of the offense and Harper’s
criminal history, relevant under § 3553(a)(1). See
Eggersdorf, 126 F.3d at 1323. So viewed as a whole,
the record reflects that the district court adequately
considered the § 3553(a) factors before denying
Harper’s motion. Smith, 568 F.3d at 927–28.
To the extent that Harper argues that the district
court erred in its ultimate decision to deny relief, that
challenge also fails. District courts have “wide
latitude” to determine whether and how to exercise
their discretion to reduce a sentence under the First
Step Act; nothing requires a court to reduce a
defendant’s sentence. Jones, 962 F.3d at 1304. And
because of the considerable discretion courts receive,
we cannot say that the district court abused its
discretion in determining that a below-Guidelines
sentence would be inappropriate.2
2

Harper also asks this Court to reconsider its holding in Jones
that, in deciding motions for reduced sentences under the First
Step Act, district courts can rely on earlier judge-found facts that

6a
AFFIRMED.

triggered statutory penalties. See 962 F.3d at 1302. But we
cannot reconsider that holding. A prior panel’s holding is binding
on all subsequent panels unless and until it is overruled or
undermined to the point of abrogation by the Supreme Court or
this Court sitting en banc. United States v. Baston, 818 F.3d 651,
662 (11th Cir. 2016).

7a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
_______
UNITED STATES OF AMERICA,
v.
MICHAEL HARPER,
Defendant.
_______
Case No. 99-cr-00125-KMM
_______
ORDER
_______
THIS CAUSE came before the Court upon
Defendant Michael Harper’s (“Defendant”) Motion for
Reconsideration. (“Mot.”) (ECF No. 1433). Therein,
Defendant requests that the Court reconsider its
Order (ECF No. 1388) denying Defendant’s Motion to
Reduce Sentence (ECF No. 1354). See generally Mot.
The Government responded in opposition. (“Resp.”)
(ECF No. 1437). Defendant filed a reply. (Reply”)
(ECF No. 1440).1 The Motion is now ripe for review.
1

On June 16, 2020, after Defendant filed the Motion, the
United States Court of Appeals for the Eleventh Circuit
published United States v. Jones, which decided several matters
of first impression that Defendant raised in his Motion. See
generally 962 F.3d 1290 (11th Cir. 2020). As such, Defendant
sought leave for the parties to submit supplemental briefing to
address how Jones impacts the issues raised in Defendant’s

8a
On March 27, 2000, a jury convicted Defendant of
conspiracy to possess with intent to distribute more
than five (5) kilograms of cocaine and fifty (50) grams
or more of cocaine base, in violation of 21 U.S.C. §
841(a)(1), § 846. (ECF Nos. 407, 710). The jury made
no specific drug-quantity finding because Defendant
was prosecuted before Apprendi v. New Jersey made
clear that drug-quantity findings that increase a
defendant’s sentence must be decided by a jury beyond
a reasonable doubt. See 530 U.S. 466, 490 (2001).
In the Presentence Investigation Report (“PSI”), 1.5
kilograms of crack cocaine was attributed to
Defendant. PSI ¶ 112. Further, at sentencing, the
Court found that Defendant was the getaway driver
during a murder in furtherance of the drug conspiracy
at issue. See PSI ¶¶ 89–91, 112; Statement of Reasons
(adopting the factual findings and guideline
applications in the PSI); see also United States v.
Baker, 432 F.3d 1189, 1213, 1253–54 (11th Cir. 2005)
(describing Defendant’s conduct in detail). Under
U.S.S.G. § 2D1.1(d)(1), which governs the punishment
for violations of § 846, “if a victim was killed under
circumstances that would constitute murder under 18
U.S.C. § 1111,” U.S.S.G. § 2A1.1 must be applied. See
Baker, 432 F.3d at 1253; see also PSI ¶ 117. Section
2A1.1 set Defendant’s base offense level at 43, which
“mandated a life sentence.” See Baker, 432 F.3d at
1253; see also PSI ¶ 159. Accordingly, the Court

Motion, which the Court granted. (ECF Nos. 1441, 1443). As
such, in addition to the Motion, Response and Reply, the Court
considered the Government’s supplemental brief (“Gov.’s Supp.
Br.”) (ECF No. 1444) and Defendant’s supplemental brief (“Def.’s
Supp. Br.”) (ECF No 1452).

9a
sentenced Defendant to life imprisonment as to Count
2. Judgment (ECF No. 791).2
Previously, Defendant, acting pro se, moved for a
reduction in sentence pursuant to Section 404 of the
First Step Act. See generally (ECF No. 1354). The
Court denied Defendant’s Motion for a Sentence
Reduction finding that, even if Defendant was entitled
to a sentence reduction under the First Step Act,
U.S.S.G. § 2A1.1 would nonetheless raise any reduced
base offense level up to 43, resulting in a life sentence.
Order at 2. Now, Defendant, through counsel, moves
for reconsideration of the Court’s Order denying his
Motion for Sentence Reduction. See generally Mot.
In the Motion, Defendant argues that the Court
erred in finding that Defendant was not eligible for a
sentence reduction. See id. at 3–10. Specifically,
Defendant argues that he is eligible for a sentence
reduction because he was sentenced for a covered
offense. Id. at 3. Further, Defendant argues that the
Court should resentence him for a detectable amount
of cocaine and cocaine base because the drug quantity
attributed to him at sentencing was not submitted to
the jury. See id. at 15–18. Pursuant to § 841(b)(1)(c),
a conviction based on a detectable amount of cocaine
base is punishable by a term of imprisonment between
zero to twenty years. See § 841(b)(1)(c). Additionally,
Defendant argues, that if the Court resentences him
pursuant to § 841(b)(1)(c), the Court is not permitted
to sentence him to a term of life imprisonment
pursuant to §2D1.1 because the statutorily authorized
2

On direct appeal, the Eleventh Circuit affirmed Defendant’s
sentence and the Court’s application of § 2A1.1 to Defendant’s
conduct. See Baker, 432 F.3d at 1255.

10a
maximum, twenty years, is less than the applicable
guideline minimum, life imprisonment. See id. at 17
(citations omitted).
“A movant’s offense is a covered offense if section
two or three of the Fair Sentencing Act modified its
statutory penalties.” Jones, 962 F3d at 1298. “To
determine the offense for which the district court
imposed a sentence, district courts must consult the
record, including the movant’s charging document,
the jury verdict or guilty plea, the sentencing record,
and the final judgment.” Id. at 1300–1301. “From
these sources, the district court must determine
whether the movant’s offense triggered the higher
penalties in section § 841(b)(1)(A)(iii) or (B)(iii).” Id.
“If so, the movant committed a covered offense.” Id.
Notably, a court’s determination of whether a
statutory violation is a covered offense does not
include consideration of the specific quantity of drugs
involved in the violation. See id. at 1301.
Nevertheless, “a movant’s satisfaction of the
‘covered offense’ require does not necessarily mean
that a district court can reduce his sentence.” Jones,
962 F3d at 1303. “Any reduction must be ‘as if sections
2 and 3 of the Fair Sentencing Act . . . were in effect
at the time of the covered offense was committed.” Id.
“The ‘as-if’ requirement imposes two limit[ations]” to
sentence reductions under the First Step Act. See id.
First, the First Step Act does not permit reducing a
movant’s sentence if he received the lowest statutory
penalty that would also be available to him under the
Fair Sentencing Act. See id. “Second, in determining
what a movant’s statutory penalty would be under the
Fair Sentencing Act, the district court is bound by a
previous finding of drug quantity that could have been

11a
used to determine the movant’s statutory penalty at
the time of sentencing.” Id. (emphasis added).
Notably, in Jones, the Eleventh Circuit held that
Apprendi and Alleyne v. United States, which require
that any fact that increases a defendant’s sentence be
submitted to and decided by the jury beyond a
reasonable doubt, do not apply to motions to reduce a
sentence. See id. at 1303–04. Specifically, the
Eleventh Circuit emphasized that, when considering
a motion to reduce a sentence, the court is not
increasing the defendant’s sentence. See id.
Additionally, the Eleventh Circuit noted that, in
Apprendi, the Supreme Court did not announce a new
constitutional rule that is cognizable on collateral
review. See id. at 1302.
Here, the Court finds that Defendant is not entitled
to a sentence reduction. As an initial matter,
Defendant was convicted and sentenced of a covered
offense. Considering the record as a whole, although
Defendant was indicted for both powder cocaine and
crack cocaine, Defendant’s offense for which the Court
imposed a sentence involved crack cocaine and
triggered the higher penalties provided in §
841(b)(1)(A)(iii). See id. at 1300–01. For example,
Count 2 of the Third Superseding Indictment only
alleges that Defendant participated in the conspiracy
by delivering crack cocaine. (ECF No. 407) at 5–7.
Further, the PSI and the Court’s findings at
sentencing attribute 1.5 kilograms of crack cocaine to
Defendant. PSI ¶ 112; Statement of Reasons.
Nevertheless, the Court is bound by its prior finding
as to drug quantity attributable to Defendant. See
Jones, 962 F.3d at 1303–04. As such, if the Fair
Sentencing Act were in effect at the time that

12a
Defendant was sentenced, Defendant would be subject
to the same guidelines, ten years to a term of life
imprisonment. See § 841(b)(1)(A)(iii). And, because
Defendant would be subject to a maximum sentence
of life imprisonment, the life sentence provided in §
2A1.1 is applicable. Even if the life sentence provided
in § 2A1.1 is not mandatory, the Court finds that a
downward departure would be inappropriate. See §
2A1.1 cmt. 2(A). Therefore, the Court finds that
Defendant is not entitled to a sentence reduction.
Accordingly, UPON CONSIDERATION of the
Motion, the responses thereto, the pertinent portions
of the record, and being otherwise fully advised in the
premises, it is hereby ORDERED and ADJUDGED
that Defendant’s Motion for Reconsideration (ECF
No. 1433) is DENIED.3
DONE AND ORDERED in Chambers at Miami,
Florida, this __3rd___ day of August, 2020.

3

Previously, Defendant, proceeding pro se, filed a Motion for
Reconsideration. (ECF No. 1399). Thereafter, Defendant filed a
motion for leave to file a corrected Motion for Reconsideration to
correct typographical errors (ECF No. 1409) and a Corrected
Motion for Reconsideration (ECF No. 1412). The Court
considered Defendant’s pro se Motion (ECF No. 1412) in addition
to the Motion filed with the benefit of counsel. And, Defendant’s
pro se Motion does not raise any arguments that counsel did not
raise in the Motion. See generally (ECF No. 1412). Therefore, for
the reasons set forth herein, Defendant’s Motion for
Reconsideration (ECF No. 1399), Motion for Leave to File Correct
Motion for Reconsideration (ECF No. 1409) and Correction
Motion for Reconsideration (ECF No. 1412) are DENIED AS
MOOT.

13a
/s/ Michael Moore
K. MICHAEL MOORE
CHIEF UNITED STATES DISTRICT
JUDGE
c: All counsel of record

14a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
_______
UNITED STATES OF AMERICA,
Plaintiff,
v.
MICHAEL HARPER,
Defendant.
_______
Case No. 99-cr-00125-KMM
_______
Signed: August 10, 2019
_______
Entered: August 12, 2019
_______
ORDER
_______
K. MICHAEL MOORE, UNITED STATES CHIEF
DISTRICT JUDGE
THIS CAUSE came before the Court upon
Defendant Michael Harper’s (“Defendant”) Motion to
Reduce Sentence pursuant to the First Step Act of
2018. (“Mot.”) (ECF No. 1354). The Court ordered the
United States Attorney’s Office (“USAO”) and the
United States Probation Office to respond and explain

15a
whether Defendant’s sentence should be corrected.
(ECF No. 1355). The Probation Office responded. The
United States Attorney’s Office also responded.
(“USAO Resp.”) (ECF No. 1361). Defendant is not
eligible for a reduction in sentence as addressed
herein.
On March 27, 2000, a jury convicted Defendant of
conspiracy to possess with intent to distribute more
than five (5) kilograms of cocaine and fifty (50) grams
or more of cocaine base, in violation of 21 U.S.C.§§
841(a)(1), 846. Jury Verdict (ECF No. 710). At
sentencing, the Court found that Defendant was the
getaway driver during a murder in furtherance of the
drug conspiracy at issue. Presentence Investigation
Report (“PSI”) ¶¶ 89–91, 112; Statement of Reasons
(adopting the factual findings and guideline
applications in the PSI); United States v. Baker, 432
F.3d 1189, 1213, 1253–54 (11th Cir. 2005) (describing
Defendant’s
conduct
in
detail).
Under
U.S.S.G.§ 2D1.1(d)(1), which governs the punishment
for violations of § 846, “if a victim was killed under
circumstances that would constitute murder under 18
U.S.C. § 1111,” U.S.S.G. § 2A1.1 must be applied. PSI
¶ 117; Baker, 432 F.3d at 1253. Section 2A1.1 set
Defendant’s base offense level at 43, which “mandated
a life sentence.” See Baker, 432 F.3d at 1253; PSI ¶
159. Accordingly, the Court sentenced Defendant to
life imprisonment as to Count 2. Judgment (ECF No.
791).1

1

On direct appeal, the Eleventh Circuit affirmed Defendant’s
sentence and the Court's application of § 2A1.1 to Defendant’s
conduct. See Baker, 432 F.3d at 1255.

16a
Defendant now moves for a reduction in sentence
pursuant to Section 404 of the First Step Act. See
generally Mot. Section 404 of the First Step Act
provides that in the case of a defendant who, before
August 3, 2010, committed a violation of a criminal
statute the penalties for which were modified by
section 2 or 3 of the Fair Sentencing Act of 2010, a
court may “impose a reduced sentence as if sections 2
and 3 of the Fair Sentencing Act of 2010 ... were in
effect at the time the covered offense was committed.”
The USAO argues that Defendant is ineligible for
any reduction in sentence under the First Step Act
because of the application of § 2A1.1, which
automatically raises Defendant’s offense level to 43,
irrespective of any retroactive application of the Fair
Sentencing Act. See USAO Resp. at 3. The Court
agrees. Even if the First Step Act somehow acts to
lower Defendant’s initial offense level for his conduct
involving cocaine base, § 2A1.1 would nonetheless
raise any reduced base level up to 43, resulting in the
same guideline range that Defendant faced at
sentencing. See United States v. Brown, Case No. 99cr-00125, slip op. at 3 (S.D. Fla. Aug. 6, 2019), ECF
No. 1385 (same analysis). Thus, the First Step Act
does not support a reduction in Defendant’s sentence.
See United States v. Bolden, Case No. 04-cr-80111BLOOM, 2019 WL 2515005, at *2 (S.D. Fla. June 18,
2019) (denying motion for sentence reduction brought
under the First Step Act when the defendant’s
guideline range remained unchanged); United States
v. Williams, Case No. 07-cr-14021-KMM-1 (S.D. Fla.
May 8, 2019), ECF No. 243 (same).
Accordingly, UPON CONSIDERATION of the
Motion, the responses thereto, the pertinent portions

17a
of the record, and being otherwise fully advised in the
premises, it is hereby ORDERED and ADJUDGED
that Defendant’s Motion to Reduce Sentence pursuant
to the First Step Act of 2018 (ECF No. 1354) is
DENIED.2
DONE AND ORDERED in Chambers at Miami,
Florida, this 10th day of August, 2019.

2

Because the Court finds Defendant ineligible for sentencing
relief under the First Step Act, his Motions for Appointment of
Counsel (ECF No. 1356) and Leave to Supplement Motion (ECF
No. 1360) are DENIED AS MOOT.

